s; •
9

No.

J-0 - V4) Is

Supreme Court. U.S.
FILED

OCT 0 3 2920
IN THE

*

OFFICE OF THE CLERK- .

SUPREME COURT OF THE UNITED STATES
*

In Re: ESTATE OF JOSEPH WEINBERG

t

LYNN WEINBERG - PETITIONER.
vs.

DEBORAH BORT - RESPONDENT

*>

ON PEITIION FORAWRIT OF CERTIORARI
TO THE DISTRICT COURT OF APPEAL OF FLORIDA
FOURTH DISTRICT

PETITION FOR WRIT OF CERTIORARI

•»

*6

Lynn Weinberg, Pro Se
Sucessor Personal Representative ofEstate ofJoseph Weinberg,
Sucessor Trustee of Joseph Weinberg Trust U/a 4/28/1997
22Q Riverside Drive
BayvUle, New Jersey 08721
(732)608-7233

t

received

OCT 1 5 2020

<r

QUESTIONS PRESENTED:

1. Whether the Fourth District Court of Appeal of Florida (“4 DCA”) violated the
due process protections of the 5th and 14th Amendments to the U.S. Constitution
and Florida constituion by blocking the Florida Supreme Court from reviewing
the Florida per curium affirmance (“ PCA'” ) to prematurely close this WW2
veteran's estate and trust, which has been lost and taken without ever allowing due
process or enforcement of probate laws, statutes or the Settlement Agreement due
to the extreme departure of the normal course of judicial proceedings in both
Florida and New Jersey.
2. Whether the Fourth District Court of Appeal of Florida violated the due process
protections of the 5 th and 14th amendments to the U.S. Constitution by blocking
the Florida Supreme Court from reviewing important federal and constitutional
law involving full faith and credit and the complete the denial of due process
where state statutes have been invalidated, and the decision is in direct conflict
with decisions of other appellate courts and the Florida Supreme Court on the
same issues.

I

PARTIES TO PROCEEDING AND RELATED CASES
All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceedings in the court whose judgment is the subj ect of this
petition is as follows:
Deborah Bort
represented by Geoffrey Cahen, Esq.
RELATED CASES
FLORIDA
In Re: Estate of Joseph Weinberg,Deceased
Case No: 502001CP003521XXFOIY, Circuit Court of the 15th
Judicial Circuit In and For Palm Beach County, Florida,
Probate Division
Bort, Deborah v. Kindred Nursing Centers East LLC Case No.
50-2001 -CA-010284-ONAF-MB BORT, DBA 10/05/2001
Weinberg V. Bort Case No. CA01-12036AF
Weinberg v. Bort, Case No. 4D07-363, 961 So. 2d 1017 (Fla. 4th DCA2007)
Weinberg v. Bort, Case No. 4D07-4608, 987 So. 2d 1227 (Fla. 4th DCA
2008)
Weinberg v. Turner, Case No. 50-2007-CA-022143-XXXX-MB (Cir. Ct.
Palm Beach Cnty.)
Weinberg v. Turner, Case No. 4D13-2246, 138 So. 3d 464 (Fla. 4th DCA 2014)
Weinberg v. Bort, Case No. 4D15-2504,193 So. 3d 899 (Fla. 4th DCA
2016)
NEW JERSEY
In the Matter of the Irrevocable Funded Life Insurance Trust Established by Joseph
Weinberg U/A Dated May 11, 1952 Docket No: 02-01078 (Superior Court of New
Jersey, Somerset County, Chancery Division, Probate Part)

\ t

If

In the Matter of the Irrevocable Funded Life Ins. Trust Established by Joseph
Weinberg, U/A dated May II, 1982 (“Weinberg I”), Docket No. A-4036-03
(App. Div. July 20, 2006), certif. Denied, 189 N.J. (2007)
Lynn Weinberg, individually and as Executrix of the Estate of Joseph Weinberg,
the Estate of Joseph Weinberg, and Lynn Weinberg, Individually and as Trustee
of the Joseph Weinberg Revocable Trust U/A April 28,1997, and the Joseph
Weinberg Revocable Trust U/A April 28, 1997 vs. Deborah Bort and Norman
Warner, Individually and as Trustee of the Joseph Weinberg Irrevocable Life
InsuranceTrust U/A May 11,1982, and Warner Financial Group Docket No.
L-6520-Q, September 14, 2006
In the Matter of the Irrevocable Funded Life Ins. Trust Established by Joseph
Weinberg, U/A dated May 11,1982 (“Weinberg II”), Docket No. A-5836-06
(App. Div. May 12, 2008), cert, denied, 196 N.J. (2008)
In the Matter of the Irrevocable Funded Life Ins. Trust Established by Joseph
Weinberg, U/A dated May 11,1982 (“Weinberg III”), Docket No. A-2351-09T3
(App. Div. Oct. 5,2011)

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

1

PARTIES AND RELATED CASES TO PROCEEDINGS
BELOW............................................................................

n

TABLE OF CONTENTS

in

STATEMENT BASIS FOR JURISDICTION

IV

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT

3

CONCLUSION

3

INDEX TO APPENDICES
APPENDIX A

PCA

APPENDIX B

August 23,2019 final Order

APPENDIX C

Promissory Note

APPENDIX D Deed of Disclaimer

% v

111

JURISDICTION
The date on which the highest state court decided my case was Mav 7.2020.
A copy of that per curium affirmance sought to be reviewed appears at Appendix
A.
An extension of time of 60 days to file a petition for the writ of certiori was
granted by Supreme Court in its Order dated March 19,2020.
The jurisdiction of this court is invoked under 28 U.S. C. 1257(a)

IV

STATEMENT OF THE CASE
My father, Joseph Weinberg, died on March 22,2001 from medical error. He was
a Florida resident and left his Estate and Florida Trust He also left a New Jersey Trust.
Due to the extreme abberation of procedure, jurisdictional errors, attorney malpractice,
violations, conflicts of interests, and tire courts not enforcing ofthe Settlement
Agreement, rules and statutes in both Florida and New Jersey (which included my home

the entire Florida estate

, the homesteaded property, and oft® condo), and, die entire

Florida Trust have been lost.
There has been no due process in this 19 year case

. I was never given any

in Florida or New Jersey to an evidentiary hearing or trial-Rules of
opportunity, ever, in
This Florida case was primarily decided by
procedure were not followed in either state.;
a New Jersey Guardian AdLitem, who had ^conflict of interest, and ahomey.
, cross examinihation and rules of evidence were ever
opinions only. No witnesses
, individually, and in my fiduciary duties as
allowed. All ofmy due process rights
lor trustee of the Florida trust, have been
sucessor personal representative and sucessor
it virtually impossible to
in both Florida and NewjJersey, making
repeatedly denied in
property ciose the estate in accordance whh Fiorida laws ami statutes.
As the result of rules, laws and statutes never being followed or enforced, this case
became a convulted mess. I’ve had to appdal the fundamental errors and mistakes 3
(three) times in New Jersey and 3 (three) bmes in Florida in my attempts
to simply have die laws of New Jersey and Florida, and die Settlement Agreement
\

enforced.
The 4* DCA has issued 3 PCA's in this case with no written explanation. Without
a decision explaining the court’s reasoning, there is no way to argue that the decision
“expressly and directly” conflicts with existing court precedent.
My father worked hard for 60 years building his estate and trusts after fighting for
this country in WW2. A manifest injustice has occurred and I, the estate and Florida trust
were denied all rights to due process and fairness to ever have foe law, statutes or
Settlement Agreement enforced.

2

REASONS WRIT SHOULD BE GRANTED.
1. The PCA with no written opinion was inappropriate because I was denied all
due process rights in this case,and the decision conflicts with decisions of other
district court of appeals, the Florida Supreme Court and the U.S. Supreme Court
on die same questions of law:
• The Fifth Amendment to the United States Constitution provides in relevant
part: “No person shall be ... deprived of life, liberty or property without due
process of law....”
.

The Fourteenth Amendment to the United States Constitution provides in
relevant part: “No state shall... deprive any person of... property, without
due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.”

. Under the Florida Constitution: Article 1, SECTION 9, Due process.—-No person
shall be deprived of life, liberty or property without due process of law.
.

Under SECTION 2 Basic rights.—All natural persons, female and male alike
are equal before the law and have inalienable rights, which includes the right to
acquire, possess and protect property.
. Under SECTION 10. Prohibited laws include law impairing the obligation of
contracts.
2. The PCA without written opinion was inappropriate because it conflicts with

3

procedural probate rules and statutes that govern all Florida probate proceedings.
. Probate is a court-supervised process for identifying and gathering the assets of a
deceased person, paying the decedent’s debts, distributing the decedent’s
assets to his or her beneficiaries, and properly closing the estate.
. The Florida Probate Code is found in Chapters 731 through 735 of the Florida
Statutes, and die rules governing Florida probate proceedings are found in the
. Florida Probate Rules, Part I and Part II (Rules 5.010-5.530).
These statutes and rules were never followed or enforced in this case.
3. The PCA without a written opinion is in direct conflict with the Florida
Constitution and U.S. Constitution where the due Process Clause entitles a person
to an impartial tribunal. No trial or evidentiary hearing was ever held.
Instead, the New Jersey Guardian Ad Litem, who had a conflict of interest with
my Florida interests, was appointed as special master to decide the disputed
Florida assets and discovery matters. This deprived me of the due process
guarantees of the right to a neutral unbiased tribunal.
. The PCA also conflicts with Fleming V. Demps, 918 So 2d 982,984 (Fla 2d DCA
2005 reiterating that Due process requires that a party be given the opportunity to
be heard and to present evidence to determine who the rightful owner of the funds
4. The PCA was inappropriate because it conflicts with Florida Statute 733.815:
Private contracts between interested persons. Here, Deborah and I agreed
to and entered into a written Florida Settlement Agreement. The conditions of the

4

explicit terms of the Settlement Agreement were completely violated, overlooked
and overrode in both New Jersey and Florida. Without a written opinion, there is
no explanation as to why die Settlement Agreement was allowed to be violated,
instead of being strictly enforced. The PCA conflicts with the Florida Supreme
Court decision in General Dynamics Corp. V. Paulucci, 797 So 2d, 18 Fla 5th
DCA 2001) where courts are required to enforce Settlement Agreements. The
erroneous overpayment on the Promissory Note against its very terms conflicts
with Florida Statute 733.812.
5. The Need for Supreme Court Intervention If this Court does not grant writ in
this case, probate laws, statutes and Settlement Agreements will not have to
enforced. Estate and trust assets will be able to just be claimed in other states
and removed with no notice, trial or evidentiary hearings Estate and trust
cases will be able to be closed without procedural and due process rights,
laws and statutes ever being enforced.
CONCLUSION
Without a decision explaining the court’s reasoning, there is no way to argue that
the decision to prematurely close this estate without allowing it to complete its
administration, collect all its rightful assets, or even file a final accounting “expressly
and directly” conflicts with existing court precedent.
The estate and trust that my father spent 60 years building after he fought for this
country in WW2, is gone. Public policy depends on laws, statutes and contracts being

5

upheld and “enforced”. They were not enforced in this case.
This PCA, and the two previous PCA's prevent the Florida Supreme Court from
reviewing the manifest injustice that has ocurred in this case resulting in the loss of the
Florida estate and Trust without ever getting due process. The PCA also directly
conflicts with decisions of other district courts on the same questions of law.
No estate, trust or petitioner's inheritence should be lost like this. This Honorable
Court is all that is left to protect my due process rights in the 5th and 14th
amendments to the U.S. Constitution. This Court instructs:
“Whether acting through its judiciary or through its legislature, a State may
not deprive a person of all existing remedies for the enforcement of a right,
which the State has no power to destroy, unless there is, or was, afforded to
him some real opportunity to protect it” Brinkerhoff-Faris Trust & Sav. Co.
v. Hill, 281 U.S. 673,50 S. Ct 451,74 L. Ed. 1107 (1930). at 681-682,50 S.
Ct., at 454-455.
Petioner, Lynn Weinberg, respectfully petitions for a Writ of Certiorari to review
the judgment of the PCA from the Fourth District Court ofAppeal.
Respectfully Submitted,

Lynn Weinberg

Date:
/

£

